CERTIFICATE OF SERVICE
NO. TBD
Superintendent Houtzdale SCI Et Al.
Petitioners,
v.
Aaron Edmonds Tyson
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
SUPERINTENDENT HOUTZDALE SCI ET AL. PETITION FOR WRIT OF CERTIORARI, by mailing three (3)
true and correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Michael Wiseman, Esq.
Wiseman & Schwartz
718 Arch Street
Suite 702
Philadelphia, PA 19106
(215) 450-0903
wiseman@wisemanschwartz.com
Counsel for Aaron Edmonds Tyson

Lucas DeDeus

December 18, 2020
SCP Tracking: Mancuso-701 Main Street-Cover White

